                                    EXPORT-I MPORT BANK
OSVALDO L. GRATACÓS                 of the UNITED STATES
INSPECTOR GENERAL


 FOR IMMEDIATE RELEASE                                                      September 6, 2011


       MIAMI SUPPLIER SENTENCED FOR ROLE IN $1.3 MILLION SCHEME TO
                  DEFRAUD THE U.S. EXPORT-IMPORT BANK

         WASHINGTON, D.C. – The Office of Inspector General (OIG) for the Export-Import
 Bank of the United States (Ex-Im Bank) announced that a Miami, Florida resident was
 sentenced on September 2, 2011 to 12 months and one day in prison for his role in a scheme to
 defraud Ex-Im Bank of more than $1.3 million. The sentencing caps ongoing investigative
 efforts by the OIG to examine fraudulent exports into South America and elsewhere.

         Mardin Varela, 54, a Canadian citizen and lawful permanent resident of the United
 States, was also sentenced by Judge Reginald Walton in U.S. District Court in Washington,
 D.C., to three years of supervised release and was ordered to pay $1,560,186.39 in restitution
 and $351,833.90 in forfeiture. Varela pleaded guilty on December 17, 2010, to a criminal
 information charging him with one count of conspiracy to defraud the United States and to
 commit mail fraud.

          Pursuant to his plea, Varela admitted that he was the President and owner of Nova
 Medical Systems Corporation, a medical equipment supplier located in Miami, Florida. From
 approximately March 2006 until approximately May 2007, Varela joined others in a conspiracy
 to fraudulently obtain a loan intended for the purchase and shipment of medical supplies to a
 buyer in Colombia. Ex-Im Bank guaranteed that loan. Varela admitted that he and his
 co-conspirators falsified documents sent to the lending bank and to Ex-Im Bank in order to
 misappropriate approximately $1,332,000 in loan proceeds. As part of the conspiracy, Varela
 and his co-conspirators falsified invoices and shipping records, then purchased and shipped
 goods that were of different type and quality than those guaranteed by Ex-Im Bank. Varela and
 the co-conspirators then split the balance of the loan proceeds between themselves. As a result
 of the fraud, the loan defaulted, and Ex-Im Bank paid the claim to the assignee of the loan, in
 the amount of $1,332,081.65.

          Ex-Im Bank is an independent federal agency that helps create and maintain U.S. jobs
 by filling gaps in private export financing at no cost to American taxpayers. Ex-Im Bank
 provides a variety of financing mechanisms, including working capital guarantees, export-credit
 insurance, and financing to help foreign buyers purchase U.S. goods and services. By charging
 fees and interest on all loan-related transactions, Ex-Im Bank is self-sustaining and is able to
 cover all operation costs and potential losses while also producing revenue. Ex-Im Bank has
 generated $3.4 billion for U.S. taxpayers over the past five years.

         Ex-Im Bank OIG is an independent agency within Ex-Im Bank. The OIG receives and
 investigates complaints and information concerning violations of law, rules or regulations, fraud
 against Ex-Im Bank, mismanagement, waste of funds, and abuse of authority connected with Ex-
 Im Bank's programs and operations.


                811 Vermont Avenue, N.W. Washington, D.C. 20571
        Additional information about the OIG can be found at www.exim.gov/oig. Complaints and
reports of waste, fraud, and abuse related to Ex-Im Bank programs and operations can be
reported to the OIG hotline at 888-OIG-EXIM (888-644-3946) or via email at IGhotline@exim.gov.
